HHS/OIG, Audit - "Follow-Up Review of HIV Prevention Program At The San Francisco STOP AIDS Project, Inc.," (A-09-02-01005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Review of HIV Prevention Program At The San Francisco STOP
AIDS Project, Inc.," (A-09-02-01005)
December 23, 2002
Complete Text of Report is available in PDF format
(2.9 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Our follow-up audit found that, for the period
reviewed, the STOP AIDS Project, Inc. had generally ensured that all of its
AIDS-related materials (including curricula, workshop and event outlines, videos,
advertisements and photographs) were reviewed and approved by a local review
panel prior to use.  For our review period, the Project also substantially
complied with Centers for Disease Control and Preventions content guidelines
by submitting its AIDS-related educational materials to the San Francisco Department
of Public Health (SFDPH) for review and approval.  We attribute this compliance
to efforts by both the SFDPH-AIDS office and the Project.
We also noted that the Project's new Finance
Director installed a software package to track costs by departments and by grants,
effective July 1, 2002, and was evaluating alternatives to implement an after-the-fact
time and effort reporting system.  The Project's comments to our draft
report stated that its new time and effort reporting system had been implemented
effective October 1, 2002.